No. 20-1573234

In the Supreme Court of the United States
VIKING RIVER CRUISES, INC.,
Petitioner,
v.
ANGIE MORIANA,
Respondent.
CERTIFICATE OF COMPLIANCE
I, Andrew J. Pincus, counsel for Amicus Curiae the Chamber of Commerce of
the United States of America, hereby certify that, according to the word-count tool in
Microsoft Word, the Brief of the Chamber of Commerce of the United States of
America as Amicus Curiae In Support of Petitioner consists of 5,986 words, including
footnotes and excluding the sections enumerated by Rule 33.1(d). The Petition
therefore complies with Rule 33.1(g).
Dated: June 14, 2021

/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
(202) 263-3000
apincus@mayerbrown.com

